Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 QUESTIONABLE BILLING FOR
    POLYSOMNOGRAPHY
        SERVICES




                    Daniel R. Levinson
                     Inspector General

                      October 2013
                     OEI-05-12-00340
EXECUTIVE SUMMARY: Questionable Billing for Polysomnography Services,
OEI-05-12-00340

WHY WE DID THIS STUDY

Increased Medicare spending on polysomnography (a type of sleep study), along with growing
concerns about fraud and abuse, prompted the Office of the Inspector General (OIG) to conduct
this study. From 2005 to 2011, Medicare spending for polysomnography services rose from
$407 million to $565 million, an increase of 39 percent. In addition, fraud investigators and
sleep medicine professionals have identified specific vulnerabilities regarding polysomnography
services. In January 2013, a provider agreed to pay $15.3 million to settle allegations of false
polysomnography claims billed to Medicare and other Federal payers.

HOW WE DID THIS STUDY

We analyzed Medicare payments for polysomnography claims for 2011. The claims were from
hospital outpatient departments and nonhospital providers, such as physician-owned sleep
laboratories and independent diagnostic testing facilities. We identified polysomnography
claims that did not meet one or more of three Medicare requirements. We also identified
providers with patterns of questionable billing using 11 measures of questionable billing, which
included the 3 Medicare requirements and 8 additional measures developed in consultation with
fraud investigators and sleep medicine professionals within and outside of OIG.

WHAT WE FOUND

Medicare paid nearly $17 million for polysomnography services that did not meet one or more of
three Medicare requirements. Payments for services with inappropriate diagnosis codes
composed a majority of these payments. Eighty-five percent of claims with inappropriate
diagnosis codes came from hospital outpatient departments. Inappropriate payments might have
been averted with effective electronic edits that automatically deny claims or suspend them for
manual review.

Further, 180 providers exhibited patterns of questionable billing for polysomnography services.
Most of these providers submitted an unusually high percentage of claims for beneficiaries with
another polysomnography claim on the same day, which is questionable because beneficiaries
can undergo only one polysomnography service in a day, as the process requires an overnight
stay.

WHAT WE RECOMMEND

To strengthen safeguards for polysomnography services, we recommend that the Centers for
Medicare & Medicaid Services (CMS) implement or improve claims processing edits and
consider using measures of questionable billing from this study to identify providers for further
investigation. We also recommend that CMS take appropriate action regarding inappropriate
payments and providers that exhibited patterns of questionable billing. CMS concurred with all
four of our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................6 

Findings......................................................................................................12 

           Medicare inappropriately paid nearly $17 million for 

           polysomnography claims that did not meet certain Medicare 

           requirements ...................................................................................12 

           One hundred and eighty providers exhibited patterns of 

           questionable billing for polysomnography services ......................14 

Conclusion and Recommendations ............................................................17 

           Agency Comments and Office of Inspector General Response.....19 

Appendix A: Agency Comments ..............................................................20 

Acknowledgments......................................................................................23 

                   OBJECTIVES
                   1.	 To identify inappropriate payments for polysomnography claims that
                       did not meet certain Medicare requirements.
                   2.	 To identify providers with patterns of questionable billing for
                       polysomnography services.

                   BACKGROUND
                   Polysomnography Services
                   In 2011, Medicare paid over 1 million claims for polysomnography
                   services, totaling almost $565 million.1 Medicare spending on
                   polysomnography increased from $407 million to $565 million
                   (39 percent) from 2005 to 2011.
                   Additionally, fraud investigators and sleep medicine professionals have
                   identified specific vulnerabilities regarding inappropriate and fraudulent
                   billing for polysomnography services. Most recently, in January 2013, a
                   provider agreed to pay $15.3 million to settle allegations of false
                   polysomnography claims billed to Medicare and other Federal payers.2
                   Polysomnography is a type of sleep study conducted to diagnose medical
                   conditions that affect sleep (e.g., sleep apnea) and to evaluate the
                   effectiveness of positive airway pressure (PAP) devices (a type of
                   treatment device for sleep apnea). During a polysomnography service, a
                   beneficiary sleeps overnight while connected to sensors that measure and
                   record parameters of sleep, such as brain wave activity, eye movement,
                   and airflow.3 If polysomnography shows that a beneficiary has sleep
                   apnea, a provider may prescribe a PAP device for treatment. Providers fit
                   and titrate PAP devices (i.e., set them to the appropriate pressure for a
                   beneficiary’s condition), after which beneficiaries may get a PAP device
                   for home use.4 Providers also may prescribe a different type of treatment
                   device, called an oral appliance, instead of a PAP device.

                   1
                     Office of Inspector General (OIG) analysis of polysomnography claims from National
                   Claims History data. Throughout this report, references to Medicare payment represent
                   the total amount allowed by Medicare, which consists of payments made by Medicare
                   plus beneficiary cost-sharing payments.
                   2
                     U.S. Department of Justice, Florida-Based American Sleep Medicine to Pay
                   $15.3 Million for Improperly Billing Medicare and Other Federal Healthcare Programs
                   (press release). Accessed at www.justice.gov on March 29, 2013. 

                   3
                     The Centers for Medicare & Medicaid Services (CMS) considers the overnight stay to

                   be an integral part of this service. CMS, Medicare Benefit Policy Manual, 

                   Pub. No. 100-02, ch. 15, § 70(B). 

                   4
                     Medicare covers prescriptions for PAP devices when an appropriate diagnosis results 

                   from a polysomnography service.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                      1
                   Providers can perform diagnostic and titration services in two visits or
                   together in a single visit, known as a split-night service. Providers can
                   perform a split-night service when a diagnosis of sleep apnea can be made
                   within the first few hours of the polysomnography service and the
                   provider is able to fit and titrate the PAP device in the same night. If the
                   provider cannot make a diagnosis early in the polysomnography service,
                   the beneficiary may need to return at a later date for an additional
                   polysomnography service to fit and titrate the PAP device.5
                   Polysomnography services are performed in hospital outpatient
                   departments and nonhospital locations, such as independent diagnostic
                   testing facilities and provider-owned sleep laboratories. (In this report, we
                   refer to these nonhospital facilities as “nonhospital providers.”)
                   Medicare Requirements for Polysomnography Services
                   Medicare pays for polysomnography services under different payment
                   systems, depending on where the services are performed. For
                   polysomnography services performed in most hospital outpatient
                   departments, Medicare pays under the Outpatient Prospective Payment
                   System.6 For polysomnography services performed by nonhospital
                   providers, Medicare pays under the Physician Fee Schedule. In 2011, the
                   Medicare payment rate for a polysomnography service was $780.77 for
                   hospital outpatient departments and $618.03 for nonhospital providers.7, 8
                   CMS contracts with Medicare Administrative Contractors (MAC) to
                   process claims. Fifteen MACs with a total of 128 distinct contracts
                   processed polysomnography claims in 2011.9 Each MAC may have
                   multiple contracts to process claims.
                   Medicare Coverage Requirements. The Social Security Act governs
                   Medicare payments for all services, including polysomnography.

                   5
                     OIG analysis of local coverage determinations (LCD) for polysomnography services
                   from 2011.

                   6
                     Some hospitals are exempt from the Outpatient Prospective Payment System, and 

                   instead receive cost-based reimbursement.

                   7
                     American Medical Association, Current Procedural Terminology reference for code 

                   95811. Accessed at hsrl.mediregs.com on April 9, 2013. Reimbursement amounts

                   reflect unadjusted 2011 Outpatient Prospective Payment System and Physician Fee 

                   Schedule base payment rates for the technical component of the service.

                   8
                     The five character codes and descriptions included in this document are obtained
                   from Current Procedural Terminology (CPT®, copyright [2011] by the American
                   Medical Association (AMA). CPT is developed by the AMA as a listing of
                   descriptive terms and five character identifying codes and modifiers for reporting
                   medical services and procedures. Any use of CPT outside of this document should
                   refer to the most current version of the Current Procedural Terminology available
                   from AMA. Applicable FARS/DFARS apply.
                   9
                     OIG analysis of polysomnography claims from National Claims History data and MAC
                   contract information from the Services Tracking, Analysis, and Reporting System.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                  2
                   Medicare covers services that it considers “reasonable and necessary,”
                   including services used to diagnose or treat a disorder.10 Also, Medicare
                   does not pay duplicate claims (i.e., multiple claims submitted for a single
                   service performed).11
                   For all diagnostic tests, including polysomnography, CMS requires an
                   order from the provider who evaluates or treats the beneficiary.12, 13
                   Polysomnography providers must enter the name and National Provider
                   Identifier (NPI) of this ordering provider on the polysomnography claim.14
                   Statutory prohibitions on self-referral specify that beneficiaries receiving
                   polysomnography services at hospital outpatient departments must be
                   ordered by a provider who does not have a financial relationship with the
                   hospital.15
                   MACs may specify additional coverage requirements through LCDs.16
                   LCDs include information such as utilization guidelines, permissible CPT
                   codes, and diagnosis codes that support medical necessity.17 For example,
                   all LCDs for polysomnography services list sleep apnea diagnosis codes as
                   supporting the medical necessity of diagnostic polysomnography.18
                   Nine of the fifteen MACs had LCDs that applied to some or all of the
                   polysomnography claims processed in 2011.19 Of these nine MACs, eight
                   had both LCDs that applied to hospital outpatient departments and LCDs
                   that applied to nonhospital providers, whereas one had only LCDs that
                   applied to nonhospital providers. The remaining six MACs had no LCDs
                   for polysomnography in 2011.20
                   Several LCDs for polysomnography specify that one service is usually
                   sufficient for diagnosis and titration. These LCDs note that there are some
                   instances in which beneficiaries may need to return for repeat
                   polysomnography services (e.g., in the case of equipment failure,
                   inconclusive results, or titration adjustments). However, the LCDs specify

                   10
                      Social Security Act § 1862(a)(1)(A); 42 U.S.C. § 1395y(a)(1)(A).
                   11
                      CMS, Reminder to Stop Duplicate Billings, Medicare Learning Network Matters 

                   No. SE0415. Accessed at www.cms.gov on March 26, 2013. 

                   12
                      42 CFR § 410.32(a). 

                   13
                      CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 15, § 70(A).

                   14
                      CMS, Claims Processing Manual, Pub. No. 100-04, ch. 26, § 10.4. 

                   15
                      Social Security Act § 1877. Polysomnography services performed by nonhospital 

                   providers are not subject to the self-referral prohibition. 

                   16
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 13, § 13.1.3. 

                   17
                      42 CFR § 400.202.

                   18
                      OIG analysis of LCDs for polysomnography services from 2011.

                   19
                      Because LCDs are established at the contract level, a MAC with multiple contracts 

                   may process some claims under contracts with applicable LCDs and other claims under 

                   contracts without applicable LCDs. 

                   20
                      OIG analysis of LCDs for polysomnography services from 2011.


Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                     3
                   that routinely performing repeat services is not medically necessary, and
                   that providers must have persuasive documentation to justify the necessity
                   of repeat tests.21
                   Medicare Billing Requirements. Providers bill for polysomnography
                   services using three CPT codes. Providers bill for diagnostic services
                   using either CPT code 95808 or 95810, depending on how many
                   parameters of sleep are measured. Providers bill for both full-night
                   titration services and split-night services using CPT code 95811. See
                   Table 1 for a description of each type of polysomnography service and
                   associated CPT codes.
             Table 1: Types of Polysomnography Services

             Type of
             Polysomnography           CPT Code                                                                  Description
             Service

                                                         Polysomnography; sleep staging with 1-3 additional parameters of
                                            95808
                                                                                           sleep, attended by a technologist.
             Diagnostic
                                                                 Polysomnography; sleep staging with 4 or more additional
                                            95810
                                                                           parameters of sleep, attended by a technologist.

                                                        Polysomnography; initiation of continuous positive airway pressure
             Titration                      95811
                                                                   therapy or bilevel ventilation, attended by a technologist.

                                                               Initial diagnostic polysomnogram confirming the diagnosis of
             Split-night                    95811                        obstructive sleep apnea followed by titration during
                                                                                       polysomnography on the same night.

             Sources: AMA, CPT reference for codes 95808, 95810, and 95811; 2011 LCDs for polysomnography services.

                   All polysomnography services consist of two components: the
                   administration of the test (the technical component) and the provider’s
                   interpretation of the test (the professional component). Providers
                   generally bill separately for the technical and professional components
                   when each is performed by a different provider; some providers may
                   perform only one component of the service.22 If a provider bills for the
                   two components together, it is referred to as a “global service.” There is
                   no financial advantage to billing separately for each component as
                   opposed to billing for a global service—for a given provider, the sum of
                   the Medicare payments for the technical and professional components is
                   equal to the payment for the global service.23


                   21
                      OIG analysis of LCDs for polysomnography services from 2011.
                   22
                      Most hospital outpatient departments can receive payment only for the technical
                   component.
                   23
                      AMA, CPT reference for codes 95808, 95810, and 95811. Accessed at
                   hsrl.mediregs.com on August 15, 2012.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                                        4
                   CMS requires providers to obtain an NPI and to use it when submitting
                   Medicare claims, including claims for polysomnography services.24, 25
                   NPIs should be deactivated if they are no longer in use (i.e., if the provider
                   organization dissolves or the provider dies).26
                   CMS also requires an appropriate diagnosis code for payment for
                   polysomnography services.27 CMS instructs providers to list the condition
                   that justifies the service as the primary diagnosis code.28, 29 The primary
                   diagnosis should be the one most relevant to the service.
                   Medicare Safeguards for Polysomnography Services
                   Medicare uses claims processing edits to prevent inappropriate payments.
                   These electronic edits automatically pay all or part of a claim, deny all or
                   part of a claim, or suspend all or part of the claim for manual review.
                   CMS has edits for certain services, including polysomnography, that deny
                   payment when the unit of service billed is not likely for normal medical
                   practice.30 These edits, referred to as Medically Unlikely Edits, apply to
                   all claims submitted nationally. Medically Unlikely Edits for
                   polysomnography services are intended to deny payment for claims with a
                   unit of service greater than one.31
                   MACs may choose to implement local edits to enforce their LCDs and
                   reduce payment error.32 For example, MACs could implement an edit to
                   deny payment for claims without a diagnosis code supporting the medical
                   necessity of a service. These are considered local edits because they apply
                   only to geographic areas covered by the MAC. MACs have the discretion
                   to implement local edits denying payment when overutilization is
                   identified and an LCD serves as the basis for the denial.33
                   CMS also conducts data mining to identify high-risk and potentially
                   fraudulent providers. One way CMS does this is by running algorithms on
                   claims data using its Fraud Prevention System.34 According to CMS staff,


                   24
                      CMS, Transmittal No. 1349. Accessed at www.cms.gov on March 26, 2013. 

                   25
                      45 CFR § 162.410(a). 

                   26
                      45 CFR § 162.408(c). 

                   27
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.4.1.3(A). 

                   28
                      CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 25, § 75.5. 

                   29
                      Ibid., ch. 26, § 10.4.

                   30
                      CMS, Medically Unlikely Edits. Accessed at www.cms.gov on March 26, 2013.

                   31
                      Practitioner Services and Outpatient Hospital Services Medically Unlikely Edit Tables. 

                   Accessed at www.cms.gov on March 26, 2013. 

                   32
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.4.1.5(A). 

                   33
                      Ibid., ch.3, § 3.4.1.4(B).

                   34
                      CMS, Center for Program Integrity: New Strategic Direction and Key Antifraud 

                   Activities. Accessed at www.cms.gov on April 19, 2013.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                       5
                   the Fraud Prevention System includes algorithms to detect potentially
                   fraudulent polysomnography providers.
                   Related Office of Inspector General Work
                   In addition to this evaluation, OIG is conducting audits of
                   polysomnography claims for selected regions to determine whether the
                   claims complied with Medicare requirements and were paid accurately.
                   As part of these audits, OIG will review MAC safeguards for the selected
                   regions. OIG is also evaluating MACs’ use and evaluation of local edits.

                   METHODOLOGY
                   Scope
                   The findings in this report are based on analysis of Medicare claims data.
                   We did not review medical documentation to determine the medical
                   necessity of polysomnography services. We also did not review MAC
                   safeguards for polysomnography services. Finally, because of data
                   limitations, we did not analyze ownership information or other indications
                   of self-referral, which may affect questionable billing for
                   polysomnography services.
                   Data Collection
                   This study is based on our analysis of 100-percent Medicare claims data
                   from CMS’s National Claims History Standard Analytic File and other
                   selected data sources. We collected Physician Fee Schedule and hospital
                   outpatient claims from 2009 to 2011 and Durable Medical Equipment
                   (DME) claims from 2009 to 2012. We also collected current NPI
                   information from CMS’s National Plan and Provider Enumeration System
                   (NPPES) and LCDs for polysomnography services from CMS’s Medicare
                   Coverage Database.
                   To create our data set, we identified all paid claims for the technical
                   component of polysomnography and global polysomnography services
                   (CPT codes 95808, 95810, and 95811) from January 1, 2011, to
                   November 30, 2011.35, 36 The data set contained 626,212 claims for a total
                   of $470 million, representing 7,232 unique providers and 461,363 unique
                   beneficiaries.37



                   35
                      We excluded zero-dollar claims.
                   36
                      We excluded claims from December 2011 because certain associated claims were not
                   available at the time of our analysis.
                   37
                      For Physician Fee Schedule claims, we identified providers by the performing NPI
                   listed on the claim. For hospital outpatient claims, we identified the provider by the
                   organization NPI listed on the claim, but we also obtained the NPI of the attending
                   physician listed on the claim for certain analyses.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                         6
                   Identification of Claims That Did Not Meet Medicare
                   Requirements
                   We analyzed our data set to identify polysomnography claims that did not
                   meet one or more of three Medicare requirements. Specifically, we
                   identified claims that were: (1) submitted with inappropriate diagnosis
                   codes, (2) for the same service date as other polysomnography claims for
                   the same beneficiary, or (3) submitted with invalid NPIs. This analysis
                   included all claims from the 7,232 providers in our population.
                   To identify polysomnography claims submitted with inappropriate
                   diagnosis codes, we determined whether the primary diagnosis code on
                   each claim was acceptable per the applicable LCD. We did not perform
                   this analysis for claims without applicable LCDs. We classified an LCD
                   as applicable if the contractor number listed on the LCD matched the
                   contractor number listed on the claim and if the LCD was in effect on the
                   service date for the claim. The 15 MACs that processed polysomnography
                   claims in 2011 accounted for 128 distinct contracts, 79 of which had LCDs
                   for polysomnography. Of the 626,204 claims in our data set,
                   456,096 (72.8 percent) had applicable LCDs.
                   After identifying polysomnography claims submitted with inappropriate
                   diagnosis codes, we determined what percentage of those claims came
                   from hospital outpatient departments as opposed to nonhospital providers.
                   For comparison, we also determined what percentage of all claims came
                   from hospital outpatient departments as opposed to nonhospital providers.
                   To identify polysomnography claims with the same service date as one or
                   more other polysomnography claims for the same beneficiary, we grouped
                   claims by beneficiary number and service date and identified groups with
                   more than one claim. We classified one claim from each of these groups
                   as allowable but classified the remaining claims as inappropriate.
                   To identify polysomnography claims that were submitted with invalid
                   NPIs, we compared the provider NPI listed on each claim to NPI
                   information from NPPES. We classified an NPI as invalid if it did not
                   exist in NPPES or if its NPPES status was “inactive” on the service date.
                   Identification of Providers That Exhibited Patterns of
                   Questionable Billing
                   We identified providers that exhibited patterns of questionable billing in
                   three steps. First, we developed 11 measures of questionable billing and
                   determined providers’ percentages for each measure. For this analysis, we
                   excluded the 893 providers in our data set that had fewer than three
                   claims, leaving a total of 6,339 providers. Next, for each measure, we
                   identified providers that had unusually high percentages of questionable
                   billing relative to other providers. To establish an objective benchmark,

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                            7
                   we considered a provider’s percentage to be unusually high if it was
                   greater than the 75th percentile plus 1.5 times the interquartile range for the
                   measure.38 Finally, we identified providers that had unusually high
                   percentages for three or more of the 11 measures. We defined a pattern of
                   questionable billing as having an unusually high percentage for three or
                   more measures.
                   The 11 measures of questionable billing are composed of 3 measures that
                   identify claims that did not meet Medicare requirements (as discussed in
                   the previous section), and 8 additional measures of questionable billing.
                   All of these measures can represent services that were not medically
                   necessary, not rendered, or otherwise inappropriate. The three measures
                   that identify claims that did not meet Medicare requirements are as
                   follows:
                        	 Inappropriate diagnosis code. This measure represents the
                           percentage of a provider’s polysomnography claims that did not
                           meet Medicare criteria because they had inappropriate diagnosis
                           codes per the applicable LCD. Providers with unusually high
                           percentages for this measure may be routinely performing and
                           billing Medicare for polysomnography services that are not
                           medically necessary.
                        	 Same-day duplicate claims. This measure represents the
                           percentage of a provider’s polysomnography claims that did not
                           meet Medicare criteria because they were for the same service date
                           as one or more other polysomnography claims for the same
                           beneficiary. Providers with unusually high percentages for this
                           measure may be routinely submitting duplicate claims.
                        	 Invalid NPI. This measure represents the percentage of a
                           provider’s polysomnography claims that did not meet Medicare
                           criteria because they were submitted with invalid NPIs.39
                           Providers with unusually high percentages for this measure may be
                           billing Medicare inappropriately.
                   The eight additional measures of questionable billing are based on
                   Medicare coverage and billing requirements for polysomnography
                   services, measures used in OIG questionable-billing studies for other

                   38
                      This is a standard exploratory method for identifying members of a population with
                   unusually high values on a given statistic compared to the rest of the population when no
                   established benchmarks exist. See J.W. Tukey, Exploratory Data Analysis,
                   Addison-Wesley, 1977.
                   39
                      A portion of a provider’s claims may have been submitted with an invalid NPI if the
                   provider’s NPI changed from active to inactive during 2011, the timeframe of our
                   analysis.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                        8
                   Medicare services, and consultations with fraud investigators and sleep
                   medicine professionals within and outside of OIG. We consulted sleep
                   medicine professionals to identify clinical standards and best practices for
                   the provision of polysomnography services. These professionals included
                   MAC clinical medical directors; a practicing physician specialist and
                   researcher; and representatives from a professional association, an
                   accreditation organization, and an advocacy group. We also consulted
                   health care fraud investigators to identify data patterns that could indicate
                   inappropriate or fraudulent billing. These individuals included OIG
                   auditors and agents, CMS policy and technical staff, and a private-sector
                   fraud examiner knowledgeable about polysomnography compliance
                   issues.
                   The eight additional measures of questionable billing are as follows:
                          	 Shared beneficiaries. This measure represents the percentage of a
                             provider’s beneficiaries who also had polysomnography claims
                             submitted by one or more other providers. Providers with
                             unusually high percentages for this measure may be using
                             compromised beneficiary numbers for fraudulent billing.
                          	 Unbundling a split-night service. This measure represents the
                             percentage of a provider’s diagnostic claims for which the provider
                             also submitted a titration claim for the same beneficiary the next
                             day. CMS allows providers to perform diagnostic and titration
                             services on separate nights, which should be billed on two separate
                             claims. Although there are some situations in which it may be
                             necessary for a provider to perform these two services on
                             consecutive nights, fraud investigators and sleep medicine
                             professionals say it is unusual for a provider to do so routinely.
                             Providers should not submit two separate claims if they perform a
                             split-night service on a single night.40 Because a split-night service
                             involves only one overnight stay, submitting two polysomnography
                             claims for a split-night service constitutes inappropriate
                             unbundling. Providers with unusually high percentages for this
                             measure may be routinely performing split-night services but
                             submitting separate diagnostic and titration claims to increase
                             reimbursement.
                          	 Double-billing for the professional component. This measure
                             represents the percentage of a provider’s claims for global services
                             that had a corresponding claim for the professional component.
                             Providers with unusually high percentages for this measure may be

                   40
                        OIG analysis of LCDs for polysomnography services from 2011.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                              9
                            routinely double-billing Medicare for the professional component
                            of the polysomnography service.41
                        	 Repeated titrations. This measure represents the percentage of a
                           provider’s beneficiaries who had three or more titration claims
                           within a 90-day period.42 According to fraud investigators and
                           sleep medicine professionals, it is rarely medically necessary for a
                           beneficiary to undergo more than two titration services in such a
                           short time. Furthermore, most LCDs explicitly require that
                           providers justify the medical necessity of polysomnography
                           services beyond two nights of testing. Given this, providers with
                           unusually high percentages for this measure may be routinely
                           performing and billing Medicare for titration services that are not
                           medically necessary or not rendered.
                        	 Missing professional component. This measure represents the
                           percentage of a provider’s claims for the technical component that
                           had no corresponding claim for the professional component
                           submitted by any provider. Providers with unusually high
                           percentages for this measure may be routinely billing for
                           polysomnography services not rendered.
                        	 Titration with no corresponding treatment device. This measure
                           represents the percentage of a provider’s titration claims for which
                           the beneficiary has no corresponding DME claims for PAP devices
                           or oral appliances. According to fraud investigators and sleep
                           medicine professionals, in almost all cases beneficiaries who
                           require a titration service are prescribed a PAP device or oral
                           appliance. Providers with unusually high percentages for this
                           measure may be routinely billing for services that are not
                           medically necessary or not rendered.
                        	 Missing visit with ordering provider. This measure represents the
                           percentage of a provider’s polysomnography claims for which the
                           beneficiary had no claims with the ordering provider in the
                           preceding year.43 Providers with unusually high percentages for
                           this measure may be routinely performing and billing Medicare for


                   41
                      Double-billing is never permissible. However, the polysomnography service and the
                   interpretation of that service may take place on different days. Accordingly, we had to
                   approximate corresponding claims. Because of this approximation, our study
                   characterizes instances of double-billing as only “questionable” rather than as definitively
                   inappropriate.
                   42
                      We excluded from our analysis all claims for incomplete titration services.
                   43
                      Because information on referring providers was available only on Physician Fee
                   Schedule claims, we did not perform this analysis for hospital outpatient claims.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                          10
                            polysomnography services for which they do not have valid orders,
                            and therefore are not medically necessary.
                        	 Repeated polysomnography services. This measure represents the
                           percentage of a provider’s beneficiaries who had two or more
                           polysomnography claims in each of 3 consecutive years. Although
                           it may be necessary in some cases for a beneficiary to undergo
                           repeat tests, it is rarely medically necessary for beneficiaries to
                           receive multiple polysomnography services in consecutive years,
                           according to fraud investigators and sleep medicine professionals.
                           As such, providers with unusually high percentages for this
                           measure may be routinely performing and billing Medicare for
                           polysomnography services that are not medically necessary or not
                           rendered.
                   Limitations
                   The 11 measures of questionable billing used in this study do not provide
                   conclusive evidence of fraudulent billing. Rather, the measures are
                   intended to identify questionable scenarios on the basis of claims data. In
                   this study, we highlight providers that, relative to their peers, have
                   unusually high percentages of questionable scenarios for several measures.
                   Further investigation would be required to determine whether these
                   providers have, in fact, submitted inappropriate or fraudulent Medicare
                   claims for polysomnography services.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Questionable Billing for Polysomnography Services (OEI-05-12-00340)                         11
                   FINDINGS
                   Medicare inappropriately paid nearly $17 million for
                   polysomnography claims that did not meet certain
                   Medicare requirements
                   Medicare inappropriately paid $16.8 million for polysomnography claims
                   that did not meet one or more of three Medicare requirements. These
                   claims had inappropriate diagnosis codes, were same-day duplicate claims,
                   or were submitted with an invalid NPI. Of the providers with paid
                   polysomnography claims in 2011, 35 percent (2,534 providers) submitted
                   at least 1 claim that did not meet 1 or more of the 3 requirements. Table
                   2 shows the number, percentage, and amount of claims that did not meet
                   one or more Medicare requirements.
                   Table 2. Polysomnography Claims That Did Not Meet One or More
                   Medicare Requirements
                   Reason Claim Did Not Meet                                     Percentage of
                                                         Number of Claims                           Amount
                   Medicare Requirements                                            All Claims

                   Inappropriate diagnosis code                        20,110           3.21%    $16,050,155
                   Same-day duplicate claim                             1,178           0.19%      $669,540
                   Invalid NPI                                            109           0.02%       $86,594
                   (Overlap)                                              (49)         (0.01%)     ($28,846)
                        Total                                          21,348           3.41%    $16,777,443
                   Source: OIG analysis of National Claims History data, 2013.


                   A majority of the claims did not meet Medicare requirements because they
                   had inappropriate diagnosis codes. Medicare should not pay claims with
                   diagnosis codes that are not allowed by LCDs.44, 45 Medicare may have
                   paid claims with inappropriate diagnosis codes because claims processing
                   edits to prevent inappropriate payments did not exist or were ineffective.
                   Past OIG work has found that MACs do not always use edits to enforce
                   LCD requirements, including those related to diagnosis codes.46, 47
                   Same-day duplicate claims were less common but also contributed to
                   inappropriate payments. Fifteen percent of these claims resulted from
                   providers’ having indicated that multiple polysomnography services were
                   performed, for the same beneficiary and same date of service, on a single
                   claim submission. These types of same-day duplicate claims could be

                   44
                      SSA §§1833(e) and 1862(a)(1)(A); 42 CFR § 400.202. 

                   45
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, 3.4.1.3(A). 

                   46
                      OIG, Inappropriate Medicare Payments for Transforaminal Epidural Injection 

                   Services, OEI-05-09-00030, April 2010. 

                   47
                      OIG, Medicare Payments for Facet Joint Injection Services, OEI-05-07-00200, 

                   September 2008. 


Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                            12
                   prevented by effective claims processing edits, such as CMS’s Medically
                   Unlikely Edits; however, a recent Government Accountability Office
                   report found deficiencies in CMS’s Medically Unlikely Edits.48 The
                   remaining 85 percent of same-day duplicate claims resulted from separate
                   claims submissions, either by the same provider or different providers.
                   Preventing payment for such claims through automatic, real-time edits
                   may not be feasible, as it would require comparisons across multiple claim
                   submissions on different dates.
                   A small proportion of claims paid inappropriately were submitted with an
                   invalid NPI. Payments to invalid NPIs may occur if CMS does not
                   validate NPIs. A previous OIG study found that Medicare paid
                   $91 million for DME claims from providers with invalid or inactive
                   provider numbers because Medicare claims processing systems verified
                   only that the provider numbers listed on a claim met certain format
                   requirements.49
                   Of claims that did not have an appropriate diagnosis code,
                   85 percent were from hospital outpatient departments
                   These claims accounted for $14 million of the $16 million paid for claims
                   with inappropriate diagnosis codes. This is a disproportionately high
                   share; only 53 percent of all polysomnography claims in 2011 came from
                   hospital outpatient departments.
                   Each of the eight MACs with LCDs that applied to hospital outpatient
                   departments processed a portion of these inappropriate claims.50 Despite
                   having written policies outlining appropriate diagnosis codes, these MACs
                   were unable to prevent inappropriate payments. This may be the result of
                   ineffective claims processing edits or not having any edits to verify that
                   the diagnosis codes submitted were appropriate.
                   Only 15 percent of the claims paid with an inappropriate diagnosis code
                   were from nonhospital providers. This is a disproportionately low share;
                   47 percent of all polysomnography claims in 2011 came from nonhospital
                   providers.
                   MACs that processed polysomnography claims from nonhospital
                   providers may have approved fewer inappropriate claims because they had

                   48
                      Government Accountability Office, Medicare Program Integrity: Greater Prepayment
                   Control Efforts Could Increase Savings and Better Ensure Proper Payment,
                   GAO-13-102, November 2012.
                   49
                      OIG, Medical Equipment and Supply Claims with Invalid or Inactive Physician
                   Numbers, OEI-03-01-00110, November 2001. 

                   50
                      The remaining seven MACs that processed polysomnography claims from hospital

                   outpatient departments in 2011 did not have applicable polysomnography LCDs, and are 

                   therefore excluded from this analysis. 


Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                    13
                   effective claims processing edits. Alternatively, these providers may have
                   submitted fewer inappropriate claims.

                   One hundred and eighty providers exhibited patterns
                   of questionable billing for polysomnography services
                   Of the 6,339 providers of polysomnography services in our population,
                   180 exhibited patterns of questionable billing for such services for 2011.
                   These providers account for 3.7 percent of the $470 million paid for
                   polysomnography services in 2011.
                   These 180 providers may be submitting inappropriate Medicare claims for
                   polysomnography services, and therefore warrant greater scrutiny. We
                   identified these providers because they had unusually high percentages,
                   relative to other providers, on three or more of our measures of
                   questionable billing. Providers that frequently submit claims that do not
                   meet Medicare requirements (such as the claims discussed in the previous
                   finding) or are associated with other measures of questionable billing may
                   be more broadly engaged in inappropriate billing.
                   Table 3 summarizes the measures of questionable billing associated with
                   the 180 providers with patterns of questionable billing.
                 Table 3. Summary of 180 Providers with Patterns of Questionable Billing for
                 Polysomnography Services, by Measure of Questionable Billing
                                                                                                    Number of Providers
                 Measure of Questionable Billing                                                      With an Unusually
                                                                                                      High Percentage *
                 Measures That Identify Claims That Did Not Meet Medicare Requirements

                 Same-day duplicate claims                                                                         105
                 Inappropriate diagnosis code                                                                       50
                 Invalid NPI                                                                                         4

                 Additional Measures of Questionable Billing

                 Shared beneficiaries                                                                               81
                 Unbundling a split-night service                                                                   79
                 Double-billing for the professional component                                                      64
                 Repeated titrations                                                                                52
                 Missing professional component                                                                     51
                 Titration with no corresponding treatment device                                                   44
                 Missing visit with ordering provider                                                               31
                 Repeated polysomnography services                                                                  10
                 Source: OIG analysis of National Claims History data, 2013.
                 * Numbers do not sum to 180 because each provider is counted in 3, 4, or 5 rows.



                   Same-day duplicate claims. Most providers with patterns of questionable
                   billing had an unusually high percentage of same-day duplicate claims.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                                  14
                   Because an overnight stay is required for a polysomnography service,
                   beneficiaries can undergo only one such service in a day. Therefore,
                   same-day duplicate claims may represent claims for services not rendered.
                   Frequent billing of same-day duplicate claims by a provider raises
                   questions about the legitimacy of a provider’s services.
                   Shared beneficiaries. Nearly half of providers with patterns of
                   questionable billing had an unusually high percentage of beneficiaries who
                   had polysomnography claims from one or more other providers in 2011.
                   These providers may be using the same compromised beneficiary numbers
                   as other providers to fraudulently bill for services not rendered. Past OIG
                   investigations have uncovered schemes in which individuals have used
                   stolen beneficiary numbers to submit false claims to Medicare.51 More
                   recently, an individual pled guilty to illicitly obtaining and selling
                   Medicare beneficiary information for fraudulent billing.52
                   Unbundling a split-night service. Many providers with patterns of
                   questionable billing had an unusually high percentage of diagnostic
                   polysomnography claims with a titration claim for the same beneficiary on
                   the following day. These providers may be performing split-night services
                   but are submitting separate claims for diagnostic and titration services
                   (i.e., unbundling the split-night service). Such unbundling inappropriately
                   increases reimbursement by generating payment for two separate services
                   instead of a single service. For nonhospital providers, unbundling could
                   result in their receiving $1,186.79 instead of $618.03.53
                   For example, if a provider begins a diagnostic service at 9 p.m. and can
                   make a diagnosis of sleep apnea early on, the provider may then begin the
                   titration at midnight or later and complete a split-night service. In this
                   scenario, a provider should submit a single split-night claim. Instead, the
                   provider might submit two separate claims: one for a full-night diagnostic
                   service on the date the split-night service began, and one for a full-night
                   titration service on the date the split-night service ended.
                   Frequently performing separate diagnostic and titration services on
                   consecutive nights is unusual, although there are situations in which it may

                   51
                      Testimony of Gerald T. Roy, OIG Deputy Inspector General for Investigations, before
                   the U.S. House of Representatives, Committee on Energy & Commerce, Subcommittee
                   on Oversight & Investigations, March 2, 2011.
                   52
                      U.S. Department of Justice, Illegal Marketer of Medicare Information Admits Role in
                   Detroit-area Home Health Care Fraud Scheme (press release). Accessed at
                   www.justice.gov on February 22, 2013.
                   53
                      AMA, CPT reference for codes 95810 and 95811. Accessed at hsrl.mediregs.com on
                   April 9, 2013. Reimbursement amounts reflect unadjusted 2011 Physician Fee Schedule
                   payment rates for the technical component of the service, which may differ from
                   nonhospital providers’ actual reimbursement amounts.

Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                     15
                   be necessary. According to fraud investigators and sleep medicine
                   professionals, scheduling a titration service on the night immediately
                   following a diagnostic service is logistically difficult for providers and
                   beneficiaries. After performing a diagnostic service, a provider may have
                   difficulty fitting a patient into the sleep lab schedule for a titration service
                   the next night. However, for beneficiaries travelling long distances,
                   providers may opt to pre-schedule two consecutive nights of testing, and
                   cancel the second night if it turns out to be unnecessary. Further, although
                   beneficiaries may not want to sleep in a lab two nights in a row, a provider
                   may deem it medically necessary to perform a titration service as soon as
                   possible if the beneficiary is diagnosed with sleep apnea but a split-night
                   service cannot be performed.
                   Missing visit with ordering provider. Some providers with patterns of
                   questionable billing had an unusually high percentage of claims for
                   beneficiaries with no evidence of a visit with the ordering provider in the
                   preceding year. An in-person evaluation is required to determine whether
                   polysomnography services are warranted; according to sleep medicine
                   professionals, polysomnography should be performed within a year after
                   the in-person evaluation. Given this, these providers may be performing
                   polysomnography services for which they do not have valid orders, and
                   that therefore are not medically necessary.
                   Previous OIG studies have raised the same concern for other types of
                   claims. A 2011 OIG study on questionable Medicare billing by suppliers
                   of lower-limb prostheses found that Medicare inappropriately paid
                   $61 million for beneficiaries with no claims from their referring
                   physicians.54 Additionally, a 2009 OIG study on ultrasound services found
                   that Medicare paid $49 million in questionable claims for beneficiaries
                   with no prior service claims from the ordering physician.55




                   54
                      OIG, Questionable Billing by Suppliers of Lower Limb Prostheses, OEI-02-10-00170, 

                   August 2011. 

                   55
                      OIG, Medicare Part B Billing for Ultrasound, OEI-01-08-00100, July 2009. 


Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                    16
                   CONCLUSION AND RECOMMENDATIONS
                   We found that in 2011, Medicare paid nearly $17 million for
                   polysomnography services that did not meet requirements. Although this
                   represents a relatively small percentage of payments for polysomnography
                   services, CMS and MACs could likely have prevented nearly all of these
                   inappropriate payments through more effective claims processing edits,
                   particularly prepayment edits to deny claims with inappropriate diagnosis
                   codes. By implementing such edits, CMS and MACs could reduce future
                   inappropriate payments for polysomnography services.
                   We also found that 180 providers exhibited patterns of questionable billing
                   for polysomnography services. Although our study did not look for or
                   find conclusive evidence of fraud, these providers warrant further scrutiny,
                   as they may be likely to submit inappropriate or fraudulent claims for such
                   services. Further investigation of these specific providers may also help
                   CMS prevent future inappropriate payments.
                   We recommend that CMS:
                   Implement Claims Processing Edits or Improve Existing Edits
                   To Prevent Inappropriate Payments
                   CMS should implement claims processing edits or improve existing edits
                   for polysomnography services.
                   To prevent payments for claims with inappropriate diagnosis codes, CMS
                   could encourage MACs to implement claims processing edits or improve
                   existing edits to check claims for appropriate diagnosis codes. CMS could
                   prioritize working with MACs that process claims from hospital outpatient
                   departments, as payments for claims with inappropriate diagnosis codes
                   were concentrated among these providers.
                   To prevent paying for same-day duplicate services, CMS could investigate
                   why its existing Medically Unlikely Edits for polysomnography did not
                   stop claims identified in this study. CMS could then correct any identified
                   problems.
                   To prevent paying for claims with invalid NPIs, CMS could also ensure
                   that claims processing edits validate NPIs.
                   Recover Payments for Claims That Did Not Meet Medicare
                   Requirements
                   CMS should investigate, and recover, if appropriate, the payments
                   identified in this study for claims that did not meet Medicare requirements.
                   In a separate memorandum, we will refer to CMS for appropriate action
                   the claims that did not meet Medicare requirements.


Questionable Billing for Polysomnography Services (OEI-05-12-00340)                          17
                   Consider Using Measures of Questionable Billing From This
                   Study To Identify Providers for Further Investigation
                   CMS should consider using one or more of the measures of questionable
                   billing in this study to improve safeguards for polysomnography services.
                   CMS could augment algorithms in its Fraud Prevention System to identify
                   polysomnography providers that, on the basis of one or more of the
                   measures of questionable billing used in this study, have
                   questionable-billing patterns. These measures could be used as screening
                   tools to help CMS select targets for audit or investigation.
                   Take Appropriate Action Regarding Providers That Exhibited
                   Patterns of Questionable Billing
                   CMS should refer providers with patterns of questionable billing to
                   contractors for further investigation to determine whether the billing
                   patterns represent inappropriate or fraudulent billing. In a separate
                   memorandum, we will refer to CMS for appropriate action the providers
                   we identified as having patterns of questionable billing.




Questionable Billing for Polysomnography Services (OEI-05-12-00340)                         18
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all four of our recommendations. To address our
                   recommendations about inappropriate payments, CMS plans to re-review
                   the Medically Unlikely Edits for polysomnography services and
                   investigate their accuracy and effectiveness. In addition, CMS plans to
                   investigate, and recover, if appropriate, the payments that did not meet
                   Medicare requirements. To address our recommendations about providers
                   with patterns of questionable billing, CMS plans to use the measures OIG
                   identified in this report to develop algorithms to detect and analyze
                   aberrant billing of polysomnography. CMS also plans to instruct
                   contractors to review providers with inappropriate billing and take
                   appropriate action. For the full text of CMS’s comments, see Appendix A.




Questionable Billing for Polysomnography Services (OEI-05-12-00340)                      19
                     APPENDIX A
                     Agency Comments

   /,P.VICtf'
  (~~:::-:~
     -i_         DEPARTMENT OF HEALTH & HUMAN SERVICES                                    C..nters for Medicare & Medlcaid Services


                                                                                          Administrator
                                                                                          Washington, DC 20201




                DATE:          AUG 15 2013

                TO: 	         Daniel R. Levinson 

                              Inspector General 


                FROM: 	       Mantyn Tavenner 

                                                 /S/
                              Administrator 


                SUBJECT: 	    Office oflnspector General (OIG) Draft Report-"Questionable Billing for
                              Polysomnography Services" (OEI-05-12-00340)


                The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                comment on the above-referenced OIG draft report. The purpose of this report is to analyze the
                increased Medicare spending on polysomnography services based on the growing concerns about
                fraud and abuse regarding these services.

                The CMS is committed to preventing improper and fraudulent billing for polysomnography
                services, particularly given the rise in Medicare spending for such services. CMS pays for
                polysomnography services under different payment systems, relying on Medicare Administrative
                Contractors (MACs) to process claims. CMS is committed to working with its MACs to develop
                and implement claims processing edits and improve existing edits in an effort to prevent such
                improper payments.

                We appreciate OIG' s efforts in working with CMS to ensure that appropriate action is taken
                regarding improper payments as well as providers that exhibit patterns of questionable billing for
                polysomnography services. Our response to each of the OIG recommendations follows.

                OIG Recommendation

                The OIG recommends that CMS implement claims processing edits or improve existing edits to
                prevent inappropriate payments .

                CMS Response

                The CMS concurs with this recommendation. CMS has developed and implemented medically
                unnecessary edits (MUEs) for the Current Procedural Terminology codes (95808, 95810, and
                95811) for polysomnography services, effective April I, 2007. CMS also has MUEs for the new
                2013 polysomnography codes 95782 and 95783, effective January I, 2013.




Questionable Billing for Polysomnography Services (OEI-05-12-00340)                                                                   20
Questionable Billing for Polysomnography Services (OEI-05-12-00340)   21
Questionable Billing for Polysomnography Services (OEI-05-12-00340)   22
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Ann Maxwell, Regional
                   Inspector General for Evaluation and Inspections in the Chicago regional
                   office; Thomas F. Komaniecki, Deputy Regional Inspector General; and
                   Laura Kordish, Deputy Regional Inspector General.
                   Kelly Waldhoff served as team leader for this study, and Adam Freeman
                   served as lead analyst. Other Office of Evaluation and Inspections staff
                   from the Chicago regional office who conducted the study include Hilary
                   Slover. Central office staff who provided support include Clarence
                   Arnold, Meghan Kearns, Sandy Khoury, Starr Kidda, and
                   Christine Moritz.




Questionable Billing for Polysomnography Services (OEI-05-12-00340)                           23
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
